         DEPARTMENT OF HEALTH & HUMAN SERVICES 	                                  Office of Inspector General



                                                                                  Washington, D,C. 20201




TO: 	             Donald M. Berwick, M.D.
                  Administrator
                  Centers fO'f Medicare & Medicaid Services

                                 /S/
FROM:             Stuart Wright
                  Deputy Inspector General
                     for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Comparison ofFourth-Quarter 2010 Average Sales Prices
           and Average Manufacturer Prices: Impact on Medicare Reimbursementfor
           Second Quarter 2011, OEI-03-11-00360


This review was conducted in accordance with the statutory mandate for the Office of Inspector
General (OIG) to identify Medicare Part B prescription drugs with average sales prices (ASP)
that exceed average manufacturer prices (AMP) by at least 5 percent. The review estimated the
financial impact of lowering reimbursement amounts for drugs that met the 5-percent threshold
to 103 percent of the AMPs, and additionally examined the potential effect of a July 2011
proposed rule that, among other things, spednes fliedicumstances under which the Centers for
Medicare & Medicaid Services (CMS) will make AMP-based price substitutions,

SUMMARY

Since the implementation of the ASP reimbursement methodology in 2005, OIG has issued
21 reports comparing ASPs with AMPs. This latest comparison examines drugs that exceeded
the 5-percent threshold based on either complete or partial AMP data in the fourth quarter of
2010. Of the 338 drug codes with complete AMP data, 15 exceeded the 5-percent threshold. If
reimbursement amounts for allIS codes had been based on 103 percent of the AMPs in the
second quarter of2011, Medicare would have saved an estimated $1.3 million. Under eMS's
proposed price substitution policy, reimbursement amounts for 5 of the 15 drugs would have
been reduced, saving an estimated $554,000, Of the 108 drug codes with partial AMP data,
15 exceeded the 5-percent threshold. CMS has expressed concern that partial AMP data may not
adequately reflect market trends and therefore proposes that drugs with partial AMP data not be
subject to price reduction. However, we found that pricing comparisons for 5 of the 15 codes
with partial AMP data seemed to accurately capture market trends; therefore, price reductions
may be appropriate in these cases. We could not perform pricing comparisons for an additional
61 drug codes because none of the drug products used to establish Medicare reimbursement had
corresponding AMP data. Manufacturers for 17 percent of those drug products had Medicaid
drug rebate agreements and were therefore generally required to submit AMPs.



OEI-03-11-00360          Comparison of Fourth-Quarter 2010 ASPs and AMPs
Page 2 – Donald M. Berwick, M.D.


BACKGROUND

The Social Security Act (the Act) mandates that OIG compare ASPs to AMPs. 1 If OIG finds
that the ASP for a drug exceeds the AMP by a certain percentage (currently 5 percent), the Act
states that the Secretary of Health & Human Services (the Secretary) may disregard the ASP for
the drug when setting reimbursement amounts. 2, 3 The Act further states that “… the Inspector
General shall inform the Secretary (at such times as the Secretary may specify to carry out this
subparagraph) and the Secretary shall, effective as of the next quarter, substitute for the amount
of payment … the lesser of (i) the widely available market price … (if any); or (ii) 103 percent of
the average manufacturer price….” 4

Medicare Part B Coverage of Prescription Drugs
Medicare Part B covers only a limited number of outpatient prescription drugs. Covered drugs
include injectable drugs administered by a physician; certain self-administered drugs, such as
oral anticancer drugs and immunosuppressive drugs; drugs used in conjunction with durable
medical equipment; and some vaccines.

Medicare Part B Payments for Prescription Drugs
CMS contracts with private companies, known as Medicare Administrative Contractors (MAC),
to process and pay Medicare Part B claims, including those for prescription drugs. To obtain
reimbursement for covered outpatient prescription drugs, health care providers submit claims to
their MACs using procedure codes. CMS established the Healthcare Common Procedure
Coding System (HCPCS) to provide a standardized coding system for describing the specific
items and services provided in the delivery of health care. In the case of prescription drugs, each
HCPCS code defines the drug name and the amount of the drug represented by the HCPCS code
but does not specify manufacturer or package size information.

Medicare and its beneficiaries spent almost $12 billion for Part B drugs in 2010. 5 Although
Medicare paid for more than 600 outpatient prescription drug HCPCS codes that year, most of
the spending for Part B drugs was concentrated on a relatively small subset of those codes. In
2010, 61 HCPCS codes accounted for 90 percent of the expenditures for Part B drugs, with only
12 of these codes representing the majority of total Part B drug expenditures.




1
  Section 1847A(d)(2)(B) of the Act.
2
  Section 1847A(d)(3)(A) of the Act.
3
  Section 1847A(d)(3)(B)(ii) of the Act provides the Secretary with authority to adjust the applicable threshold
percentage in 2006 and subsequent years; however, the threshold percentage has been maintained at 5 percent.
4
  Section 1847A(d)(3)(C) of the Act.
5
  Medicare expenditures for Part B drugs in 2010 were calculated using CMS’s Part B Analytics and Reports
(PBAR). The PBAR data for 2010 were 98 percent complete when the data were downloaded in April 2011.

OEI-03-11-00360            Comparison of Fourth-Quarter 2010 ASPs and AMPs
Page 3 – Donald M. Berwick, M.D.


Reimbursement Methodology for Part B Drugs and Biologicals
Medicare Part B pays for most covered drugs using a reimbursement methodology based on
ASPs. 6 As defined by law, an ASP is a manufacturer’s sales of a drug to all purchasers in the
United States in a calendar quarter divided by the total number of units of the drug sold by the
manufacturer in that same quarter. 7 The ASP is net of any price concessions, such as volume
discounts, prompt pay discounts, cash discounts, free goods contingent on purchase
requirements, chargebacks, and rebates other than those obtained through the Medicaid drug
rebate program. 8 Sales that are nominal in amount are exempted from the ASP calculation, as
are sales excluded from the determination of “best price” in Medicaid’s drug rebate program. 9, 10

Manufacturers that participate in the Medicaid drug rebate program must provide CMS with the
ASP and volume of sales for each of their national drug codes (NDC) on a quarterly basis, with
submissions due 30 days after the close of each quarter. 11 An NDC is an 11-digit identifier that
represents a specific manufacturer, product, and package size.

Because Medicare Part B reimbursement for outpatient drugs is based on HCPCS codes rather
than NDCs and more than one NDC may meet the definition of a particular HCPCS code, CMS
has developed a file that “crosswalks” manufacturers’ NDCs to HCPCS codes. CMS uses
information in this crosswalk file to calculate volume-weighted ASPs for covered HCPCS codes.

Calculation of Volume-Weighted ASPs
Second-quarter 2011 Medicare payments for most covered drug codes were based on
fourth-quarter 2010 ASP submissions from manufacturers, which were volume-weighted using
an equation that involves the following variables: the ASP for the 11-digit NDC as reported by
the manufacturer, the volume of sales for the NDC as reported by the manufacturer, and the
number of billing units in the NDC as determined by CMS. 12 The amount of the drug contained
in an NDC may differ from the amount of the drug specified by the HCPCS code that providers
use to bill Medicare. Therefore, the number of billing units in an NDC describes the number of
HCPCS code units that are in that NDC. For instance, an NDC may contain a total of
10 milliliters of Drug A, but the corresponding HCPCS code may be defined as only 5 milliliters
of Drug A. In this case, there are two billing units in the NDC. CMS calculates the number of
billing units in each NDC when developing its crosswalk files.

6
  Several Part B drugs, including certain vaccines and blood products, are not paid for under the ASP methodology.
7
  Section 1847A(c) of the Act, as added by the Medicare Prescription Drug, Improvement, and Modernization Act of
2003, P.L. 108-173.
8
  Section 1847A(c)(3) of the Act.
9
  Section 1847A(c)(2) of the Act.
10
   Pursuant to section 1927(c)(1)(C)(i) of the Act, “best price” is the lowest price available from the manufacturer
during the rebate period to any wholesaler, retailer, provider, health maintenance organization, nonprofit entity, or
governmental entity within the United States, with certain exceptions.
11
   Section 1927(b)(3) of the Act.
12
   The equation that CMS currently uses to calculate volume-weighted ASPs is described in section 1847A(b)(6) of
the Act. It is also provided in Appendix A.


OEI-03-11-00360            Comparison of Fourth-Quarter 2010 ASPs and AMPs
Page 4 – Donald M. Berwick, M.D.


Under the ASP pricing methodology, the Medicare allowance for most Part B drugs is equal to
106 percent of the volume-weighted ASP for the HCPCS code. Medicare beneficiaries are
generally responsible for 20 percent of this amount in the form of coinsurance.

The Medicaid Drug Rebate Program and AMPs
For Federal payment to be available for covered outpatient drugs provided under Medicaid, the
Act mandates that drug manufacturers enter into rebate agreements with the Secretary and pay
quarterly rebates to State Medicaid agencies. 13 Under these rebate agreements and pursuant to
the Act, manufacturers must provide CMS with the AMPs for each of their NDCs. 14 As further
explained in regulation, manufacturers are required to submit AMPs within 30 days after the end
of each quarter. 15

The AMP is generally calculated as a weighted average of prices for all of a manufacturer’s
package sizes of a drug and is reported for the lowest identifiable quantity of the drug (e.g.,
1 milliliter, one tablet, one capsule). Effective as of the fourth quarter of 2010, the Patient
Protection and Affordable Care Act (Affordable Care Act) revised the definition of AMP to be
the average price paid to the manufacturer for the drug in the United States by (1) wholesalers
for drugs distributed to retail community pharmacies; and (2) retail community pharmacies that
purchase drugs directly from the manufacturer. 16, 17, 18 Because the AMPs calculated under this
new definition are expected to be based on higher-priced sales, the new AMPs are likely to be
higher than the AMPs calculated before October 2010. 19, 20

Penalties for Failure To Report Timely Drug Pricing Data
Pursuant to the Act, manufacturers that fail to provide ASP and AMP data on a timely basis may
be subject to civil money penalties and/or termination from the drug rebate program. 21, 22
Accordingly, CMS has terminated rebate agreements with a number of manufacturers for failure
to report AMPs and, for the purposes of evaluating potential civil money penalties, has referred
13
   Sections 1927(a)(1) and (b)(1) of the Act.
14
   Section 1927(b)(3) of the Act.
15
   42 CFR § 447.510.
16
   Section 1927(k)(1) of the Act, as amended by section 2503 of the Affordable Care Act, P.L. 111-148.
17
   Pursuant to section 1927(k)(10) of the Act, “retail community pharmacy” means an independent, chain,
supermarket, or a mass merchandiser pharmacy that is licensed as a pharmacy by the State and that dispenses
medications to the general public at retail prices. Such term does not include a pharmacy that dispenses prescription
medications to patients primarily through the mail; nursing home, long-term care, or hospital pharmacies; clinics;
charitable or not-for-profit pharmacies; government pharmacies; or pharmacy benefit managers.
18
   Prior to October 2010, the AMP was generally defined by statute to be the average price paid to the manufacturer
for the drug in the United States by wholesalers for drugs distributed to the retail pharmacy class of trade.
19
   As stated by the Department of Health & Human Services in its comments on page 12 of a 2010 Government
Accountability Office (GAO) report entitled Medicaid Outpatient Prescription Drugs: Estimated Changes to
Federal Upper Limits Using the Formula under the Patient Protection and Affordable Care Act (GAO-11-141R).
20
   This anticipated increase in AMPs may lessen the likelihood that a drug’s ASP will exceed the 5-percent
threshold, effectively making price substitution criteria more stringent.
21
   Sections 1927(b)(3)(C)(i) and (4)(B)(i) of the Act.
22
   The Secretary delegated to OIG the responsibility to impose civil money penalties for violations of section
1927(b)(3)(C) of the Act in 59 Fed. Reg. 52967 (Oct. 20, 1994).

OEI-03-11-00360            Comparison of Fourth-Quarter 2010 ASPs and AMPs
Page 5 – Donald M. Berwick, M.D.


to OIG manufacturers that failed to submit timely ASPs and AMPs. In September 2010, OIG
announced an enforcement initiative under which it would begin imposing civil money penalties
on manufacturers that failed to report timely ASPs and/or AMPs. 23

OIG’s Monitoring of ASPs and AMPs
In accordance with its statutory mandate, OIG has issued 18 quarterly pricing comparisons since
the ASP reimbursement methodology for Part B drugs was implemented in January 2005. In
addition, OIG has completed three annual overviews of ASPs and AMPs, which examined data
across all four quarters of 2007, 2008, and 2009, respectively. A list of all 21 reports is provided
in Appendix B.

OIG has consistently recommended that CMS develop a price substitution policy and
subsequently lower reimbursement for drugs that exceed the 5-percent threshold. Although
CMS has yet to make any changes to Part B drug reimbursement as a result of these studies, the
agency published a proposed rule in July 2011 that, among other things, specifies the
circumstances under which AMP-based price substitutions would occur. 24, 25 CMS plans to
implement its price substitution policy beginning in the first quarter of 2012. 26

CMS’s Proposed Price Substitution Policy
Under CMS’s July 2011 proposed price substitution policy, 103 percent of the AMP would be
substituted for the ASP-based reimbursement amount when OIG identifies a HCPCS code that
meets the 5-percent threshold in two consecutive quarters or three of four quarters. Because
CMS believes that substituted prices based on partial AMP data may not adequately reflect
market trends, the agency would lower reimbursement amounts only when ASP and AMP
comparisons are based on the same set of NDCs (i.e., based on complete AMP data). HCPCS
codes that meet the 5-percent threshold based on partial AMP data would not be eligible for price
substitution.

Price substitutions would take effect in the quarter after OIG shares the results of its most recent
pricing comparison and would remain in effect for one quarter. 27 To prevent CMS’s proposed
policy from inadvertently raising the Medicare reimbursement amount, a price substitution




23
   OIG, Special Advisory Bulletin: Average Manufacturer Price and Average Sales Price Reporting Requirements,
September 2010. Available online at http://www.oig.hhs.gov.
24
   76 Fed. Reg. 42772, 42947 (July 19, 2011).
25
   CMS previously proposed a price substitution policy to be used for calendar year 2011 but opted not to finalize
that price substitution policy based, in part, on impending changes to the definition of AMP (75 Fed. Reg.
73170,73471).
26
   76 Fed. Reg. 42772, 42947 (July 19, 2011).
27
    After that one quarter, the reimbursement amount would be either 106 percent of the volume-weighted ASP for
the current quarter or, if the HCPCS code continues to meet CMS’s price substitution criteria, 103 percent of the
volume-weighted AMP for the current quarter.

OEI-03-11-00360           Comparison of Fourth-Quarter 2010 ASPs and AMPs
Page 6 – Donald M. Berwick, M.D.


would not occur when the substituted amount is greater than the ASP-based payment amount
calculated for the quarter in which the price substitution would take effect. 28

METHODOLOGY

We obtained a file from CMS containing NDC-level ASP data from the fourth quarter of 2010,
which were used to establish Part B drug reimbursement for the second quarter of 2011. This
file also includes information that crosswalks NDCs to their corresponding HCPCS codes. Both
the ASP data and the crosswalk data were current as of March 22, 2011. We also obtained AMP
data from CMS for the fourth quarter of 2010, which were current as of February 3, 2011.

Analyzing ASP Data From the Fourth Quarter of 2010
As mentioned previously, Medicare does not base reimbursement for covered drugs on NDCs;
instead, it uses HCPCS codes. Therefore, CMS uses ASP information submitted by
manufacturers for each NDC to calculate a volume-weighted ASP for each covered HCPCS
code. When calculating these volume-weighted ASPs, CMS includes only NDCs with ASP
submissions that are deemed valid.

As of April 2011, CMS had established prices for 514 HCPCS codes based on the ASP
reimbursement methodology mandated by the Act. 29 Reimbursement amounts for the
514 HCPCS codes were based on ASP data for 3,185 NDCs.

Analyzing AMP Data From the Fourth Quarter of 2010
To ensure that the broadest range of drug codes is subject to OIG’s pricing comparisons, we
divided HCPCS codes into the following three groups:

        (1) HCPCS codes with complete AMP data—i.e., HCPCS codes with AMP data for
            every NDC that CMS used in its calculation of volume-weighted ASPs;

        (2) HCPCS codes with partial AMP data—i.e., HCPCS codes with AMP data for only
            some of the NDCs that CMS used in its calculation of volume-weighted ASPs; and

        (3) HCPCS codes with no AMP data—i.e., HCPCS codes with no AMP data for any of
            the NDCs that CMS used in its calculation of volume-weighted ASPs.

As previously noted, the AMP for each NDC is reported for the lowest identifiable quantity of
the drug contained in that NDC (e.g., 1 milliliter, one tablet, one capsule). In contrast, the ASP
is reported for the entire amount of the drug contained in the NDC (e.g., 50 milliliters,
100 tablets). To ensure that the AMP would be comparable to the ASP, it was necessary to


28
   For example, if the AMP-based substitution amount were $5 and the ASP-based reimbursement amount were
$4 for the quarter in which the substitution would take place, CMS would not make the price substitution.
29
   Section 1847A(b)(6) of the Act.

OEI-03-11-00360          Comparison of Fourth-Quarter 2010 ASPs and AMPs
Page 7 – Donald M. Berwick, M.D.


convert the AMP for each NDC so that it represented the total amount of the drug contained in
that NDC.

To calculate “converted AMPs” for NDCs in the first and second groups, we multiplied the AMP
by the total amount of the drug contained in each NDC, as identified by sources such as the CMS
crosswalk file, manufacturer Web sites, Thomson Reuters’ Red Book, and the Food and Drug
Administration’s NDC directory. 30 For certain NDCs, we were unable to identify the amount of
the drug reflected by the ASP or AMP and therefore could not calculate a converted AMP.
Because of these unsuccessful AMP conversions, a total of seven HCPCS codes were removed
from our analysis.

Using NDCs with successful AMP conversions, we then calculated a volume-weighted AMP for
each of the corresponding HCPCS codes, consistent with CMS’s methodology for calculating
volume-weighted ASPs. When calculating the volume-weighted AMP for a HCPCS code with
partial AMP data, we excluded any NDCs without AMPs; however, we did not exclude those
NDCs from the corresponding volume-weighted ASP. This means that the volume-weighted
AMP for a HCPCS code with partial AMP data is based on fewer NDCs than the
volume-weighted ASP for that same code. Appendix C provides a more detailed description of
the methods we used to both convert AMPs and calculate volume-weighted AMPs. Table 1
provides the final number of HCPCS codes and NDCs included in our analysis after we removed
NDCs with either no AMP data or unsuccessful AMP conversions.

Table 1: Number of Drug Codes and NDCs Included in OIG’s Pricing Comparison
                                                                            Number of        Number of
 Availability of AMP Data for HCPCS Codes
                                                                         HCPCS Codes            NDCs

 Complete AMP Data                                                                338             1,435

 Partial AMP Data                                                                 108              909

 No AMP Data                                                                        61             244

Source: OIG analysis of fourth-quarter 2010 ASP and AMP data, 2011.


Comparing Fourth-Quarter 2010 Volume-Weighted ASPs and AMPs for HCPCS Codes
With Complete AMP data
For each of the 338 HCPCS codes with complete AMP data, we compared the volume-weighted
ASP and AMP and determined whether the ASP for the code exceeded the AMP by at least
5 percent. For HCPCS codes that exceeded the 5-percent threshold, we reviewed the associated
NDCs to verify the accuracy of the billing unit information. According to our review, none of
the HCPCS codes that exceeded the threshold were associated with questionable billing units.




30
     We did not calculate converted AMPs for NDCs in the third group because those NDCs had no AMP data.

OEI-03-11-00360             Comparison of Fourth-Quarter 2010 ASPs and AMPs
Page 8 – Donald M. Berwick, M.D.


For each of the HCPCS codes that exceeded the 5-percent threshold, we estimated the monetary
impact of lowering reimbursement to 103 percent of the AMP. 31 First, we calculated 103
percent of the volume-weighted AMP and subtracted this amount from the second-quarter 2011
reimbursement amount for the HCPCS code. To estimate the financial effect for the second
quarter of 2011, we then multiplied the difference by one-fourth of the number of services that
were allowed by Medicare for each HCPCS code in 2010, as reported in the PBAR. 32, 33

To determine which HCPCS codes would have been subject to CMS’s proposed price
substitution policy, we identified codes with complete AMP data that met the 5-percent threshold
in two consecutive or three of four quarters. We then totaled the estimated second-quarter 2011
savings for that subset of codes.

Comparing Fourth-Quarter 2010 Volume-Weighted ASPs and AMPs for HCPCS Codes
With Partial AMP data
For each of the 108 HCPCS codes with partial AMP data, we compared the volume-weighted
ASP and AMP and determined whether the ASP for the code exceeded the AMP by at least
5 percent. For HCPCS codes that exceeded the 5-percent threshold, we reviewed the associated
NDCs to verify the accuracy of the billing units. According to our review, one of the HCPCS
codes that exceeded the threshold based on partial AMP data was associated with questionable
billing units. Because volume-weighted ASPs and AMPs are calculated using this billing unit
information, we could not be certain that the results for this code were correct. Therefore, we
excluded this HCPCS code from our findings.

For each of the remaining HCPCS codes that exceeded the 5-percent threshold based on partial
AMP data, we determined whether missing AMPs unduly influenced the results of our pricing
comparison. As mentioned previously, the volume-weighted AMP for a HCPCS code with
partial AMP data is based on fewer NDCs than the volume-weighted ASP for that same code.
Therefore, there may be a disparity between the volume-weighted ASP and AMP that would not
exist if AMP data were available for the full set of NDCs. In other words, the volume-weighted
ASP for the HCPCS code could exceed the volume-weighted AMP by at least 5 percent only
because AMPs for certain NDCs were not represented.

CMS has expressed concern that partial AMP data may not adequately reflect market trends. 34
Therefore, to identify HCPCS codes with partial AMP data that exceeded the 5-percent threshold
only because AMP data were missing, we reanalyzed pricing data after accounting for the

31
   Section 1847A(d)(3)(C) of the Act directs the Secretary to replace payment amounts for drugs that exceed the
5-percent threshold with the lesser of the widely available market price for the drug (if any) or 103 percent of the
AMP. For the purposes of this study, we used 103 percent of the AMP to estimate the impact of lowering
reimbursement amounts. If widely available market prices had been available for these drugs and lower than
103 percent of the AMP, the savings estimate presented in this report would have been greater.
32
   The PBAR data for 2010 were 98 percent complete when the data were downloaded in April 2011.
33
   This estimate assumes that the number of services that were allowed by Medicare in 2010 remained consistent
from one quarter to the next and that there were no significant changes in utilization between 2010 and 2011.
34
   76 Fed. Reg. 42772, 42830 (July 19, 2011).

OEI-03-11-00360            Comparison of Fourth-Quarter 2010 ASPs and AMPs
Page 9 – Donald M. Berwick, M.D.


missing values. Specifically, we replaced each missing AMP with its corresponding ASP and
recalculated the volume-weighted AMPs using those imputed prices. 35 We then compared those
new volume-weighted AMPs to the volume-weighted ASPs originally calculated by CMS.

If a HCPCS code no longer exceeded the 5-percent threshold, we concluded that the missing
AMPs were likely responsible for the HCPCS code initially exceeding the threshold, as opposed
to an actual disparity between ASPs and AMPs in the marketplace.

If a HCPCS code continued to exceed the 5-percent threshold, we concluded that missing AMPs
had little impact on the results of our pricing comparison. These HCPCS codes likely exceeded
the threshold as a result of actual pricing differences between ASPs and AMPs. Because price
substitutions for these HCPCS codes may be warranted, we estimated the monetary impact of
lowering reimbursement to 103 percent of the new volume-weighted AMPs. We also identified
HCPCS codes with partial AMP data that met the threshold in two consecutive or three of four
quarters and totaled the estimated second-quarter 2011 savings for that subset of codes.

Limitations
We did not verify the accuracy of manufacturer-reported ASP and AMP data, nor did we verify
the underlying methodology used by manufacturers to calculate ASPs and AMPs. Furthermore,
we did not verify the accuracy of CMS’s crosswalk files or examine NDCs that CMS opted to
exclude from its calculation of Part B drug reimbursement amounts.

Manufacturers are required to submit their quarterly ASP and AMP data to CMS 30 days after
the close of the quarter. Our analyses were performed on ASP and AMP data compiled by CMS
soon after that deadline. We did not determine whether manufacturers provided additional or
revised pricing data to CMS at a later date.

Standards
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Of the 338 Drug Codes With Complete AMP Data, Volume-Weighted ASPs for
15 Exceeded the Volume-Weighted AMPs by at Least 5 Percent
As mandated by the Act, OIG compared ASPs to AMPs to identify instances in which the ASP
for a particular drug exceeded the AMP by a threshold of 5 percent. In the fourth quarter of
2010, 15 of the 338 HCPCS codes with complete AMP data (4 percent) exceeded this 5-percent
threshold. Table 2 describes the extent to which ASPs exceeded AMPs for the 15 HCPCS codes.
For two of the codes, the volume-weighted ASP exceeded the volume-weighted AMP by more

35
   Although an NDC’s ASP is not usually the same as its AMP, it is generally within about 5 percent of the AMP on
average. Therefore, we believe that ASP acts as a reasonable proxy for AMP, ensuring that the NDC is represented
in both the volume-weighted ASP and the volume-weighted AMP for the HCPCS code.

OEI-03-11-00360           Comparison of Fourth-Quarter 2010 ASPs and AMPs
Page 10 – Donald M. Berwick, M.D.


than 60 percent. A list of all 15 HCPCS codes, including their descriptions and HCPCS dosage
amounts, is presented in Appendix D.

                       Table 2: Extent to Which ASPs Exceeded AMPs for
                           15 HCPCS Codes With Complete AMP Data
                             Percentage by Which ASP             Number of HCPCS
                             Exceeded AMP                                   Codes
                             5.00%–9.99%                                          7
                             10.00%–19.99%                                        6
                             20.00%–29.99%                                        0
                             30.00%–39.99%                                        0
                             40.00%–49.99%                                        0
                             50.00%–59.99%                                        0
                             60.00%–69.99%                                        1
                             70.00%–79.99%                                        0
                             80.00%–89.99%                                        0
                             90.00%–99.99%                                        0
                             100% and above                                       1
                                Total                                            15
                            Source: OIG analysis of fourth-quarter 2010 ASP and AMP data, 2011.


Pursuant to section 1847A(d)(3) of the Act, the Secretary may disregard the ASP for a drug that
exceeds the 5-percent threshold and shall substitute the payment amount with the lesser of either
the widely available market price or 103 percent of the AMP. If reimbursement amounts for all
15 codes with complete AMP data had been based on 103 percent of the AMPs during the
second quarter of 2011, Medicare expenditures would have been reduced by an estimated
$1.3 million in that quarter alone. 36, 37 Three of the fifteen HCPCS codes accounted for over
80 percent of the $1.3 million. If the reimbursement amounts for codes J9214, J9045, and J1572
had been based on 103 percent of the AMPs during the second quarter of 2011, we estimate that
Medicare expenditures would have been reduced by $533,000, $270,000, and $262,000,
respectively.

If CMS’s proposed price substitution policy had been in effect, reimbursement amounts for 5 of
the 15 HCPCS codes would have been reduced. These five HCPCS codes had complete AMP
data and met the 5-percent threshold in either two consecutive quarters or three of four quarters.
If reimbursement amounts for the five codes had been based on 103 percent of the AMPs during
the second quarter of 2011, Medicare expenditures would have been reduced by an estimated


36
   All savings estimates in this report assume that the number of services that were allowed by Medicare in 2010
remained consistent from one quarter to the next and that there were no significant changes in utilization between
2010 and 2011.
37
   Of the 15 HCPCS codes that exceeded the 5-percent threshold using complete AMP data, one was not listed in the
2010 PBAR file. As a result, this code was not included in the estimated savings for this group.

OEI-03-11-00360           Comparison of Fourth-Quarter 2010 ASPs and AMPs
Page 11 – Donald M. Berwick, M.D.


$554,000. 38 Table 3 presents a list of the five HCPCS codes that would have been eligible for
price substitution if CMS’s proposed policy had been in effect.


     Table 3: Five HCPCS Codes With Complete AMP Data in the Fourth Quarter of 2010
            That Would Have Met CMS’s Proposed Criteria for Price Substitution
                                                 OIG Reports Comparing ASP and AMP
                                            Fourth            Third         Second             First
                     HCPCS
                                           Quarter          Quarter         Quarter          Quarter
                     Code
                                              2010            2010            2010             2010

                     J9214                 X                X                X               X
                     J9060                 X                X                                X*
                     J9218                 X                X
                     Q0175                 X                X
                     Q0176                 X                X
                   *This code previously exceeded the 5-percent threshold during the specified quarter based
                   on partial AMP data. For all other quarters, codes exceeded the 5-percent threshold based
                   on complete AMP data.
                   Source: OIG analysis of ASP and AMP data from the first quarter of 2010 through
                   the fourth quarter of 2010.


Of the 108 Drug Codes With Partial AMP Data, Volume-Weighted ASPs for 15 Exceeded
the Volume-Weighted AMPs by at Least 5 Percent
In addition to examining HCPCS codes with complete AMP data, we examined 108 HCPCS
codes for which only partial AMP data were available. ASPs for 15 of these 108 HCPCS codes
(14 percent) exceeded the AMPs by at least 5 percent in the fourth quarter of 2010. A list of the
15 HCPCS codes, including their descriptions and HCPCS dosage amounts, is presented in
Appendix E.

For one-third of the HCPCS codes (5 of 15), missing AMPs likely had little influence on the
outcome of the pricing comparisons. Five of the fifteen HCPCS codes with partial AMP data
continued to exceed the threshold when we accounted for missing AMPs, suggesting that the
pricing comparisons for these codes were accurately capturing underlying market trends even
though AMP data were not available for the full set of NDCs. Because missing AMPs likely had
little influence on the pricing comparison results for these five HCPCS codes, price substitutions
may be legitimately warranted in these cases. If reimbursement amounts for the five codes had
been based on 103 percent of the AMPs, we estimate that Medicare expenditures would have
been reduced by $67,000 during the second quarter of 2011. Table 4 describes the extent to
which ASPs exceeded AMPs for the five HCPCS codes.




38
  One of the five HCPCS codes was not listed in the 2010 PBAR file and therefore was not included in the savings
estimate.

OEI-03-11-00360           Comparison of Fourth-Quarter 2010 ASPs and AMPs
Page 12 – Donald M. Berwick, M.D.


For the remaining 10 of 15 HCPCS codes, ASPs no longer exceeded the AMPs in the fourth
quarter of 2010, indicating that these codes initially exceeded the threshold because of missing
AMP data rather than a genuine pricing disparity between the ASPs and AMPs.

                        Table 4: Extent to Which ASPs Exceeded AMPs for
                            Five HCPCS Codes With Partial AMP Data
                                  Percentage by Which ASP             Number of HCPCS
                                  Exceeded AMP                                   Codes
                                  5.00%–9.99%                                           1
                                  10.00%–19.99%                                         2
                                  20.00%–29.99%                                         0
                                  30.00%–39.99%                                         0
                                  40.00%–49.99%                                         0
                                  50.00%–59.99%                                         2
                                  60.00%–69.99%                                         0
                                  70.00%–79.99%                                         0
                                  80.00%–89.99%                                         0
                                  90.00%–99.99%                                         0
                                  100% and above                                        0
                                     Total                                              5
                                Source: OIG analysis of fourth-quarter 2010 ASP and AMP data, 2011.


Of the five HCPCS codes on which missing AMPs likely had little influence, two met the
5-percent threshold in either two consecutive or three of four quarters. Although CMS’s
proposed price substitution policy would not apply to HCPCS codes with partial AMP data,
ASPs for these two codes repeatedly met or exceeded the AMPs by at least 5 percent. If
reimbursement amounts for the two codes had been substituted with 103 percent of the AMPs,
Medicare expenditures would have been reduced by an estimated $59,000 during the second
quarter of 2011. Table 5 presents a list of the two HCPCS codes and the quarters during which
they previously exceeded the 5-percent threshold.

   Table 5: Two HCPCS Codes With Partial AMP Data in the Fourth Quarter of 2010
   That Met the 5-Percent Threshold in Two Consecutive or Three of Four Quarters
                                                OIG Reports Comparing ASP and AMP
                                          Fourth           Third          Second              First
                   HCPCS
                                         Quarter         Quarter          Quarter           Quarter
                   Code
                                            2010           2010             2010              2010

                   J1020                 X               X*                                 X*
                   Q0165                 X                                X                 X
                  *This code previously exceeded the 5-percent threshold during the specified quarters based
                  on complete AMP data. For all other quarters, codes exceeded the 5-percent threshold based
                  on partial AMP data.
                  Source: OIG analysis of ASP and AMP data from the first quarter of 2010 through
                  the fourth quarter of 2010.



OEI-03-11-00360            Comparison of Fourth-Quarter 2010 ASPs and AMPs
Page 13 – Donald M. Berwick, M.D.


Pricing Comparisons Could Not Be Performed on 61 Drug Codes Because No AMP Data
Were Available
For 61 HCPCS codes, OIG could not compare ASPs and AMPs because there were no AMP data
for any of the 244 NDCs that CMS used when calculating drug reimbursement amounts for these
codes. In 2010, Medicare allowances for these 61 codes totaled $302 million. 39

Manufacturers for 17 percent of the NDCs without AMP data (41 of 244) participated in the
Medicaid drug rebate program as of the fourth quarter of 2010 and were therefore generally
required to submit AMP data for their covered outpatient drugs. 40, 41, 42

Manufacturers for the remaining 203 of 244 NDCs did not participate in the Medicaid drug
rebate program and therefore were not required to submit AMP data.

CONCLUSION

To monitor Medicare reimbursement amounts based on ASPs and consistent with its statutory
mandate, OIG compared ASPs and AMPs to identify instances in which the ASP for a particular
drug exceeded the AMP by at least 5 percent. This is OIG’s 22nd report comparing ASPs and
AMPs, and it examines HCPCS codes with AMP data for every NDC that CMS used to establish
reimbursement amounts, as well as HCPCS codes with only partial AMP data.

We identified a total of 30 HCPCS codes that exceeded the threshold for price adjustment in the
fourth quarter of 2010. Of these 30 HCPCS codes, 15 had complete AMP data (i.e., AMP data
for every drug product that CMS used to establish reimbursement amounts). If CMS’s proposed
price substitution policy had been in effect, reimbursement amounts for 5 of the 15 HCPCS
codes would have been lowered to 103 percent of the AMP, thereby saving Medicare and its
beneficiaries more than a half million dollars in that quarter alone. The remaining 15 of
30 HCPCS codes also exceeded the 5-percent threshold in the fourth quarter of 2010 but did not
have AMP data for every drug product that CMS used when calculating reimbursement.
Although CMS’s proposed price substitution policy would not apply to codes with partial AMP
data, price reductions may be legitimately warranted for 5 of the 15 codes because missing
AMPs likely had little influence on the pricing comparison results. We recognize that the
estimated savings associated with these five HCPCS codes is not substantial; however, by
excluding from its policy all codes with partial AMP data, CMS may inadvertently provide drug
manufacturers with a disincentive to submit timely AMPs. We could not compare ASPs and

39
   Of the 61 HCPCS codes with no associated AMP data, 1 was not listed in the 2010 PBAR file. As a result, this
code was not included in the total Medicare allowances for the year.
40
   To determine whether a manufacturer participated in the Medicaid drug rebate program, we consulted CMS’s
Drug Company Contact Information, accessed at http://www.cms.gov on April 26, 2011.
41
   Although manufacturers with rebate agreements are required to submit AMP data for their covered outpatient
drugs, there may be valid reasons why an AMP was not provided for a specific NDC in a given quarter. For
example, a manufacturer may not have been required to submit an AMP if the drug product had been terminated and
there was no drug utilization during the quarter.
42
   These 41 NDCs were crosswalked to 26 HCPCS codes.

OEI-03-11-00360          Comparison of Fourth-Quarter 2010 ASPs and AMPs
Page 14 – Donald M. Berwick, M.D.


AMPs for 61 HCPCS codes because AMP data were not submitted for any of the NDCs that
CMS used to calculate reimbursement. Manufacturers for 17 percent of these NDCs had
Medicaid drug rebate agreements and were therefore generally required to submit AMPs. OIG
will continue to work with CMS to evaluate and pursue appropriate actions against those
manufacturers that fail to submit required data.

Although we are not making recommendations in this report, some of OIG’s previous pricing
comparisons have contained recommendations, which we continue to support. 43 In response to
OIG’s most recent report with recommendations, CMS questioned whether the payoff associated
with price substitution justifies the resources that OIG devotes to quarterly pricing comparisons,
suggesting that OIG limit its efforts to a single annual report. However, until CMS complies
with its statutory responsibility to lower reimbursement amounts for eligible drugs, OIG will
continue to issue quarterly pricing comparisons along with annual overviews that recommend
price substitutions as warranted.

This report is being issued in final form because it contains no recommendations. If you have
comments or questions about this report, please provide them within 60 days. Please refer to
report number OEI-03-11-00360 in all correspondence.




43
 For example, OEI-03-08-00450, December 2008; OEI-03-09-00350, February 2010; and OEI-03-10-00380,
April 2011.

OEI-03-11-00360         Comparison of Fourth-Quarter 2010 ASPs and AMPs
Page 15 – Donald M. Berwick, M.D.


APPENDIX A

The Equation Used by the Centers for Medicare & Medicaid Services To Calculate
Volume-Weighted Average Sales Prices on or After April 1, 2008


A volume-weighted average sales price (ASP) is calculated for the dosage amount associated with
the Healthcare Common Procedure Coding System (HCPCS) code. In the following equation, the
“number of billing units” represents the number of HCPCS code doses that are contained in a
national drug code (NDC).



       Volume-Weighted ASP            Sum of (ASP for NDC * Number of NDCs Sold)
        for Dosage Amount  =
          of HCPCS Code        Sum of (Number of NDCs Sold * Number of Billing Units in NDC)




OEI-03-11-00360      Comparison of Fourth-Quarter 2010 ASPs and AMPs
Page 16 – Donald M. Berwick, M.D.


APPENDIX B

Previous Office of Inspector General Reports Comparing Average Sales Prices and Average
Manufacturer Prices


                     Monitoring Medicare Part B Drug Prices: A Comparison of Average Sales
                      Prices to Average Manufacturer Prices, OEI-03-04-00430, April 2006

                     Comparison of Fourth-Quarter 2005 Average Sales Prices to Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Second Quarter
                      2006, OEI-03-06-00370, July 2006

                     Comparison of Third-Quarter 2006 Average Sales Prices to Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for First Quarter
                      2007, OEI-03-07-00140, July 2007

                     Comparison of First-Quarter 2007 Average Sales Prices to Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Third Quarter
                      2007, OEI-03-07-00530, September 2007

                     Comparison of Second-Quarter 2007 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Fourth Quarter
                      2007, OEI-03-08-00010, December 2007

                     Comparison of Third-Quarter 2007 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for First Quarter
                      2008, OEI-03-08-00130, May 2008

                     Comparison of Fourth-Quarter 2007 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Second Quarter
                      2008, OEI-03-08-00340, August 2008

                     Comparison of Average Sales Prices and Average Manufacturer Prices: An
                      Overview of 2007, OEI-03-08-00450, December 2008

                     Comparison of First-Quarter 2008 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Third Quarter
                      2008, OEI-03-08-00530, December 2008




OEI-03-11-00360          Comparison of Fourth-Quarter 2010 ASPs and AMPs
Page 17 – Donald M. Berwick, M.D.


                     Comparison of Second-Quarter 2008 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Fourth Quarter
                      2008, OEI-03-09-00050, February 2009

                     Comparison of Third-Quarter 2008 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for First Quarter
                      2009, OEI-03-09-00150, April 2009

                     Comparison of Fourth-Quarter 2008 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Second Quarter
                      2009, OEI-03-09-00340, August 2009

                     Comparison of First-Quarter 2009 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Third Quarter
                      2009, OEI-03-09-00490, August 2009

                     Comparison of Second-Quarter 2009 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Fourth Quarter
                      2009, OEI-03-09-00640, January 2010

                     Comparison of Average Sales Prices and Average Manufacturer Prices: An
                      Overview of 2008, OEI-03-09-00350, February 2010

                     Comparison of Third-Quarter 2009 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for First Quarter
                      2010, OEI-03-10-00150, April 2010

                     Comparison of Fourth-Quarter 2009 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Second Quarter
                      2010, OEI-03-10-00350, July 2010

                     Comparison of First-Quarter 2010 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Third Quarter
                      2010, OEI-03-10-00440, November 2010

                     Comparison of Second-Quarter 2010 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Fourth Quarter
                      2010, OEI-03-11-00030, February 2011




OEI-03-11-00360          Comparison of Fourth-Quarter 2010 ASPs and AMPs
Page 18 – Donald M. Berwick, M.D.


                     Comparison of Average Sales Prices and Average Manufacturer Prices: An
                      Overview of 2009, OEI-03-10-00380, April 2011

                     Comparison of Third-Quarter 2010 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for First Quarter
                      2011, OEI-03-11-00160, May 2011




OEI-03-11-00360          Comparison of Fourth-Quarter 2010 ASPs and AMPs
Page 19 – Donald M. Berwick, M.D.


APPENDIX C

Detailed Methodology for Converting and Volume-Weighting Average Manufacturer
Prices for the Fourth Quarter of 2010

Healthcare Common Procedure Coding System codes with complete average manufacturer price
data. Of the 514 Healthcare Common Procedure Coding System (HCPCS) codes with
reimbursement amounts based on average sales prices (ASP), 344 had average manufacturer
prices (AMP) for every national drug code (NDC) that the Centers for Medicare & Medicaid
Services (CMS) used to calculate volume-weighted ASPs. These 344 HCPCS codes represented
1,467 NDCs. For six NDCs, we could not successfully identify the amount of the drug reflected
by the ASP and therefore could not calculate a converted AMP. These six NDCs were
crosswalked to six HCPCS codes. We did not include these six HCPCS codes (32 NDCs) in our
final analysis.

Using the converted AMPs for the remaining 1,435 NDCs, we then calculated a
volume-weighted AMP for each of the remaining 338 HCPCS codes consistent with CMS’s
methodology for calculating volume-weighted ASPs.

HCPCS codes with partial AMP data. There were 109 HCPCS codes with AMP data for only
some of the NDCs that CMS used in its calculation of volume-weighted ASPs. These
109 HCPCS codes represented a total of 1,474 NDCs. AMP data were either missing or
unavailable for 556 of these NDCs, which were then excluded from our calculation of
volume-weighted AMPs. 44

We calculated converted AMPs for each of the remaining 918 NDCs. For 9 of the 918 NDCs,
we could not identify the amount of the drug reflected by the ASP and therefore could not
calculate a converted AMP. We removed these nine NDCs from our analysis. 45 As a result, one
HCPCS code no longer had any NDCs with AMP data. Therefore, this HCPCS code was
removed from our analysis.

Using the converted AMPs for the remaining 909 NDCs, we then calculated a
volume-weighted AMP for each of the remaining 108 HCPCS codes consistent with CMS’s
methodology for calculating volume-weighted ASPs.




44
   Although AMP data for these 556 NDCs were excluded from our calculation of volume-weighted AMPs, the
corresponding ASPs were not excluded from the volume-weighted ASPs as determined by CMS.
Volume-weighted ASPs remained the same, regardless of the availability of AMP data.
45
   Although we removed NDCs with problematic AMP conversions, we did not remove the corresponding HCPCS
codes, provided that other NDCs for those drug codes had usable AMP data. This differs from our analysis of
HCPCS codes with complete AMP data, in which we removed not only the NDCs with problematic AMP
conversions, but also the corresponding HCPCS codes.

OEI-03-11-00360          Comparison of Fourth-Quarter 2010 ASPs and AMPs
Page 20 – Donald M. Berwick, M.D.


HCPCS codes with no AMP data. For 61 HCPCS codes, there were no AMP data for any of the
NDCs that CMS used in its calculation of volume-weighted ASPs. These 61 HCPCS codes
represented 244 NDCs.




OEI-03-11-00360     Comparison of Fourth-Quarter 2010 ASPs and AMPs
Page 21 – Donald M. Berwick, M.D.


APPENDIX D

Fifteen Drug Codes With Complete Average Manufacturer Price Data That Exceeded the
5-Percent Threshold in the Fourth Quarter of 2010


          Drug
          Code                                                    Short Description          Drug Code Dosage
          J0287                                Amphotericin b lipid complex injection                      10 mg

          J1364                                   Erythromycin lactobionate injection                    500 mg

          J1572                                                Flebogamma injection                      500 mg

          J1650                                          Enoxaparin sodium injection                       10 mg

          J1955                                                Levocarnitine injection                          1g

          J9000                                             Doxorubicin HCl injection                      10 mg

          J9045                                                  Carboplatin injection                     50 mg

          J9060                                                     Cisplatin injection                    10 mg

          J9155                                                    Degarelix injection                         1 mg

          J9214                                            Interferon alfa-2b injection            1 million units

          J9218                                          Leuprolide acetate injection                          1 mg

          J9268                                                  Pentostatin injection                     10 mg

          J9370                                           Vincristine sulfate injection                        1 mg

          Q0175                                                   Perphenazine, oral                           4 mg

          Q0176                                                   Perphenazine, oral                           8 mg

         mg=milligram, g=gram
         Source: Office of Inspector General analysis of fourth-quarter 2010 average sales price and average
         manufacturer price data, 2011.




OEI-03-11-00360           Comparison of Fourth-Quarter 2010 ASPs and AMPs
Page 22 – Donald M. Berwick, M.D.


APPENDIX E

Fifteen Drug Codes With Partial Average Manufacturer Price Data That Exceeded the
5-Percent Threshold in the Fourth Quarter of 2010


          Drug
          Code                                                   Short Description          Drug Code Dosage
          J0171                                       Adrenalin epinephrine injection                    0.1 mg

          J0636                                                    Calcitriol injection                 0.1 mcg

          J1020                                         Methylprednisolone injection                      20 mg

          J1040                                         Methylprednisolone injection                      80 mg

          J1080                                     Testosterone cypionate injection                     200 mg

          J1162                                 Digoxin immune fab (ovine) injection                     Per vial

          J1190                                           Dexrazoxane HCl injection                      250 mg

          J1626                                            Granisetron HCl injection                   100 mcg

          J2700                                            Oxacillin sodium injection                    250 mg

          J7509                                             Methylprednisolone, oral                       4 mg

          Q0164                                       Prochlorperazine maleate, oral                       5 mg

          Q0165                                       Prochlorperazine maleate, oral                      10 mg

          Q0179                                               Ondansetron HCl, oral                        8 mg

          Q9965                  Low osmolar contrast material,100-199 mg/ml iodine                        1 mL

          Q9966                 Low osmolar contrast material, 200-299 mg/ml iodine                        1 mL

         mg=milligram, mcg=microgram, and mL=milliliter
         Source: Office of Inspector General analysis of fourth-quarter 2010 average sales price and average manufacturer
         price data, 2011.




OEI-03-11-00360           Comparison of Fourth-Quarter 2010 ASPs and AMPs
